           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


         SENIOR ATTORNEY
       ADJUDICATOR PROGRAM

      July 2011   A-12-10-11018




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   July 29, 2011                                                             Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Senior Attorney Adjudicator Program (A-12-10-11018)



        OBJECTIVE
        Our objectives were to assess the role of the Senior Attorney Adjudicator (SAA)
        program in reducing the hearings backlog, and evaluate the factors that affected SAA
        performance.

        BACKGROUND

        On August 9, 2007, SSA issued an interim final rule 1 permitting SAAs to issue fully
        favorable on-the-record (OTR) decisions, 2 thereby conserving administrative law judge
        (ALJ) resources for the more complex cases that require a hearing. The SAA program
        is one of a number of Commissioner-led initiatives to reduce the hearings backlog. The
        program’s purpose is to improve the disability determination process and increase
        adjudication capacity, using an approach similar to that of the SAA experiment of
        1995 through 2000. SSA issued guidance for the SAA program in the interim final rule. 3
        Originally, the Agency included a provision to end the program on August 10, 2009;
        however, on July 13, 2009, the Agency extended the program for 2 additional years. 4
        The program was extended again on April 4, 2011, for another 2 years. 5




        1
            Amendment to the Attorney Advisor Program, 72 Fed. Reg. 44763 (August 9, 2007).
        2
         SAAs review cases filed under Titles II and XVI of the Social Security Act, as amended. OTR decisions
        by SAAs do not require a formal hearing.
        3
            See footnote 1.
        4
            Extension of Sunset Date for Attorney Advisor Program, 74 Fed. Reg. 33327 (July 13, 2009).
        5
            Extension of Sunset Date for Attorney Advisor Program, 76 Fed. Reg. 18383, (April 4, 2011).
Page 2 - The Commissioner


SAAs are compensated at the General Schedule-13 level. Since the SAA program was
reestablished in August 2007, the Office of Disability Adjudication and Review (ODAR)
made one modification to the SAA position description by adding the adjudication duty. 6
SAA duties include rendering legal advice to ALJs, researching and developing cases
for ALJs, writing decisions after hearings, screening cases and adjudicating fully
favorable OTR decisions, and mentoring junior attorneys. 7

As part of our methodology, we interviewed managers, ALJs, and staff in ODAR’s Office
of the Chief ALJ (OCALJ); four regional management teams; and hearing office
managers, ALJs, and SAAs in nine hearing offices. We also reviewed national and
regional statistics to analyze trends in SAA decisions. 8

RESULTS OF REVIEW
In Fiscal Year (FY) 2010, 689 SAAs adjudicated approximately 54,000 decisions. When
compared to FY 2008, this represents a 46-percent increase in the number of
adjudicating SAAs and a 120-percent increase in the number of SAA decisions. SAA
decisions represented about 7 percent of all ODAR dispositions in FY 2010. In terms of
SAAs per office, we found the national average among hearing offices was one SAA for
every two ALJs, though the ratios per individual hearing office varied widely. In
addition, not all SAAs were actively adjudicating cases. For example, in our analysis of
FY 2009 decisions, we found individual SAAs issued between 1 and 511 decisions.
The SAA program has increased the number of adjudicators who can make timely
decisions on cases, with SAA decisions taking an average of 165 days versus the
national average processing time of 426 days for all cases in FY 2010. Moreover,
according to the Agency’s internal quality reviews, the SAA decisions were 96-percent
accurate. Finally, we did not find a measurable difference in ODAR’s allowance rate
since the start of the SAA program.

The majority of the regional and hearing office managers we interviewed had a positive
impression of the SAA program. The benefits cited by these managers included
(1) higher hearing office productivity; (2) greater retention of attorneys; and
(3) increased advancement opportunities for productive SAAs. Managers also cited
areas that could be improved, including (1) clearly defined performance measures and
related awards; (2) a consistent method for promotions; (3) more developed attorney
adjudicator worksheets; and (4) maintaining a sufficient number of decision writers.



6
 The Agency modified the SAA position description to add the adjudication duties upon the start of the
SAA program. SSA added adjudication language to other hearing office positions that have authority to
adjudicate claims, including attorneys who are hearing office directors (HOD) or group supervisors (GS)
and regional attorneys.
7
    See Appendix B for a description of these duties.
8
 See Appendix C for a further discussion of our scope and methodology and Appendix D for our hearing
office selection criteria.
Page 3 - The Commissioner


SAA WORKLOAD TRENDS

To understand the role of the SAA program as it relates to hearing backlogs, we
reviewed SAA trends related to (1) number of decisions, (2) individual SAA workloads,
(3) decisional timeliness, (4) decisional accuracy, and (5) allowance rates.

Number of Dispositions and SAA Positions

The number of SAA decisions increased by about 120 percent over a 2-year period,
from 24,575 decisions in FY 2008 to 54,186 decisions in FY 2010 (see Figure 1). 9
During the same period, the number of adjudicating SAAs increased by 46 percent,
from 471 SAAs in FY 2008 to 689 SAAs in FY 2010. 10

                                               Figure 1: Number of SAA Decisions
                                                     (FYs 2008 Through 2010)


                                                                                 54,186
                                      60,000

                                                                  36,366
                Number of Decisions




                                      40,000
                                                    24,575

                                      20,000



                                          0
                                                 FY 2008        FY 2009        FY 2010
                                                              Fiscal Year



SAA decisions 11 represented over 7 percent of ODAR’s national dispositions in FY 2010
(see Table 1). While ODAR was projecting its total national dispositions would rise from
FYs 2011 to 2013, the number of SAA decisions was projected to decline from the



9
  ODAR provided the SAA decision totals. We calculated slightly more SAA decisions when we compiled
the SAA decision using ODAR’s Case Processing and Management System (CPMS).
10
   An adjudicating SAA has at least one OTR in a FY. Additional ODAR personnel may have the authority
under the SAA program to adjudicate. For example, ODAR reported 715 SAAs in FY 2010, even though
only 689 issued at least 1 OTR during the FY. Hence, about 4 percent of the SAAs did not issue an OTR
in FY 2010.
11
     SAAs issue only fully favorable OTR decisions.
Page 4 - The Commissioner


FY 2010 level and continue to decrease through FY 2013. 12 Moreover, OCALJ
managers told us that SAA positions will be added in the future.

                 Table 1: SAA Decisions as a Percent of Total Dispositions
                                        (FYs 2009 Through 2013)
                                                     Fiscal Year1
      Workloads           2008         2009       2010        2011               2012            2013

 SAA Decisions           24,575       36,366        54,186        53,200        49,200          48,600

 Total
                        575,380      660,842       737,616       814,600       822,500          818,300
 Dispositions2

 Percent of Total         4.3%         5.5%          7.4%          6.5%          6.0%            5.9%

Note 1: FYs 2011 through 2013 based on SSA projections.
Note 2: Total dispositions include ALJ and SAA decisions as well as ALJ dismissals. These workload
        figures were provided by ODAR management at the time of our review.

We spoke to ODAR managers to discuss the anticipated decrease in SAA decisions
after FY 2010. The managers stated that when the SAA program began, ODAR had
many older cases (900 days and older). SAAs began by screening the older cases and
were able to issue OTR decisions on those claims where updated medical evidence
indicated the claimant’s medical condition had worsened. However, as ODAR
continues to work down the backlog and the processing time approaches the goal of
270 days, SAAs will be screening cases recently decided by DDS offices, and less time
will have elapsed during which a medical condition may have worsened. As a result,
while the SAA screening process is expected to continue identifying claims that can be
decided as OTRs, ODAR managers expect such cases to be less prevalent. Our own
analysis of the SAA decisions, discussed in a later section and Appendix G, indicates
aged cases do not appear to be a significant part of the SAA workload.

SAAs per Hearing Office

Hearing offices had between one and nine SAAs at the end of FY 2009. 13 We
interviewed OCALJ managers about how ODAR decides which hearing offices need
SAAs and how many need to be hired. The managers told us that SAA hiring decisions
are based primarily on hearing office workload; hearing offices with greater workloads
required more SAAs. However, in our review of the SAAs hired in FY 2009, we could
not always find a clear relationship between a hearing office’s size and the number of
SAAs, even though one would expect a larger office to have a greater need for
additional SAAs. For instance, the Savannah, Georgia, Hearing Office had 2 SAAs for

12
  For updated projections since we conducted our review, see our June 2011 report, Congressional
Response Report: The Office of Disability Adjudication and Review’s Hearings Backlog and Processing
Times (A-12-11-21192).
13
     See Appendix F for a listing of the number of SAAs and SAA decisions per hearing office.
Page 5 - The Commissioner


every 10 ALJs, a ratio of 0.2:1, while the Atlanta North, Georgia, Hearing Office had
8 SAAs for every 10 ALJs, a ratio of 0.8:1. Both Offices served the same State and are
of similar size, but the use of their SAA program varied widely.

While ODAR managers in the regions had varying statements on whether ODAR
Headquarters provided SAA ceilings, in general, these managers agreed that the
number of SAA promotions was based on the number of qualified attorneys in an office,
which may lead to variations in the SAA-to-ALJ ratios. Philadelphia regional managers
said hearings offices sometimes share the SAAs, so the SAA’s specific location was not
as important.

ODAR executives explained that with the implementation of the electronic folder, ODAR
is moving to a national model for processing its workload. ODAR is electronically
transferring claims from backlogged hearing offices to (1) other hearing offices
nationwide, (2) National Hearing Centers (NHC), 14 and (3) National Case Assistance
Centers (NCAC) for processing. 15 As a result of this new model, ODAR may focus
more on ALJ staffing ratios at the regional rather than hearing office level. 16

Individual SAA Workloads

We reviewed the SAA dispositions in FY 2009 to determine the number of decisions
issued by each adjudicating SAA. 17 The average number of decisions per SAA in
FY 2009 was 57. 18 For instance, about 21 percent of the SAAs issued over 100 OTR
decisions, with 1 SAA issuing 511 OTR decisions (the highest count). During the same
period, 124 SAAs (about 23 percent) issued 10 OTR decisions or fewer, with 30 SAAs
issuing 1 OTR decision in FY 2009.




14
 NHCs, which only conduct video hearings, operate in Albuquerque, New Mexico; Baltimore, Maryland;
Chicago, Illinois; Falls Church, Virginia; and St. Louis, Missouri.
15
  ODAR established two NCACs: a decision writing unit in McLean, Virginia, and a pulling and writing
unit in St. Louis, Missouri.
16
  Hearing offices already have national staffing ratio goals associated with decision writers and other
support staff in relation to each ALJ. Senior attorneys are included in the decision writer to ALJ staffing
ratio. See our February 2010 audit of Hearing Office Performance and Staffing (A-12-08-28088), where
we note that the introduction of the SAA program has made it more difficult to calculate these ratios.
17
  We used ODAR’s FY 2009 CPMS Closed Claims Database as a source for the data. Complete
FY 2010 data were not available at the time of our testing.
18
     See Appendix G for more analysis of SAA decisional trends.
Page 6 - The Commissioner


                        Figure 2: Number of Decisions per SAA
                                     (FY 2009)
                         21%
                                                                              23%
                      (117 SAAs)
                                                                           (124 SAAs)




                  27%                                                          29%
               (149 SAAs)                                                   (158 SAAs)



                    10 or fewer decisions                   11 to 50 decisions
                    51 to 100 decisions                     More than 100 decisions

The low number of decisions among senior attorneys related to a number of factors,
including the following. 19

•    SAAs promoted close to the end of FY 2009 did not have an opportunity to
     adjudicate many cases before the close of the FY.
•    Management personnel, such as GSs, 20 can adjudicate cases periodically among
     other duties.
•    Hearing office management may prefer to use an SAA to write decisions rather than
     adjudicate cases.

Some SAAs spend the majority of their time adjudicating decisions, based on hearing
office needs or national programs, with a number of these cases coming from screening
units. For example, an Office of Quality Performance (OQP) screening unit reviews
cases based on specific criteria and cases meeting the criteria are referred to SAAs for
possible OTR decisions. If the SAA agrees with the OQP recommendation, the SAA
adjudicates the case. In addition, ODAR established the Virtual Screening Unit (VSU),
which consists of up to100 SAAs from around the country who work out of their home
offices and review screened cases from other parts of the country, particularly cases

19
 As we noted earlier, about 4 percent of the individuals with SAA authority in FY 2010 did not issue an
OTR decision. We did not have SAA counts from ODAR for FY 2009 to make a similar calculation.
However, these same factors would relate to an SAA issuing no OTR decisions in FY 2009.
20
  The GS is the first-line supervisor of the Attorney Advisor, the Paralegal Analyst, Lead Case
Technician, Senior Case Technician, and the Case Technician. The GS directs all the activities of
employees assigned to the group to ensure the efficient, timely and legally sufficient processing of
hearing office cases. For a further discussion of hearing office position descriptions, see Appendix B in
our audit report, Hearing Office Performance and Staffing, (A-12-08-28088), February 2010.
Page 7 - The Commissioner


from backlogged hearing offices. 21 According to Agency figures, SAAs in the VSUs had
screened 50,000 cases and issued over 15,000 favorable decisions in FY 2010. Credit
for the OTR disposition goes to the hearing office where the SAA is located, and not the
hearing office where the case originated, thereby potentially boosting hearing office
productivity where the SAA is located.

Timeliness of SAA Decisions

Cases decided by SAAs in FY 2010 took an average of 165 days to process, while
SSA’s reported national average processing time (APT) for a case was 426 days. 22 Our
review of ODAR’s data demonstrates the average processing time for both SAAs and
ALJs decreased between FYs 2008 and 2010, with the SAA program contributing to an
overall lower processing time for all dispositions. 23

                                     Table 2: SAA and ALJ APTs
                                        (FYs 2008 Through 2010)
                                          SAA Average             ALJ Average
                 Fiscal Year            Processing Time         Processing Time
                     2008                    260 days                       525 days
                     2009                    240 days                       506 days
                     2010                    165 days                       446 days
            Note: ALJ dispositions include dismissals.

SAA decisions, like all OTR decisions, can be processed in less time for a number of
reasons. 24 First, SAA OTR decisions do not require a hearing, which reduces the time
needed to make a decision. 25 Second, SAAs can work newer cases where an OTR is
appropriate. ALJs are often focused on the oldest cases 26 under the Commissioner’s
21
   SAAs who participate in the VSU receive 1 week of formal training. ODAR management may expand
this formal training to all SAAs. Under the VSU initiative, SAAs show up to work at the local hearing
office, but their case work is assigned by the VSU. The day-to-day supervisory structure of the SAAs
remains in the local hearing office including time and attendance, monitoring workload, addressing PII
issues, performance appraisals, and flexiplace.
22
  ODAR does not break out the SAA APT in its performance measure. The hearings national APT
includes the APT of ALJ decisions as well as SAA decisions. We calculated the APT for non-SAAs to be
about 506 days in FY 2009, based on the data we had for SAA decisions and the total national
dispositions.
23
     See Appendix G for timeliness information pertaining to each region.
24
  Before the SAA program, all OTRs would have been decided by an ALJ. As a result, the presence of
the SAAs provided more focused resources on the same workload, allowing ALJs to handle those cases
requiring a hearing. In this review, we did not evaluate whether fewer OTR cases in an ALJ’s mix of
cases led to longer processing time on the remaining cases.
25
  A number of additional steps are needed to conduct a hearing, including providing notice to the
claimant 20 days before the planned hearing.
26
  For example, in FY 2009 ODAR was focusing on cases that would be 850 days old by the end of the
FY. See our September 2009 report on this initiative, Aged Claims at the Hearing Level (A-12-08-18071).
Page 8 - The Commissioner


Aged Claim initiative and in line with “first-in, first-out” (FIFO) policy, though they are not
limited to hearing aged cases. For instance, ALJs also review newer cases for OTR
decisions as well as giving hearing priority to cases defined as critical. 27

One HOD stated that SAAs were helping reduce her hearing office’s APT by reviewing
the newer cases and medical evidence records as they come in. In August 2009,
ODAR issued guidance recommending OTR screening focus on (1) claimants age
50 and older and (2) targeted impairment codes. 28 In the instructions, ODAR noted that
selecting “targeted impairments” allows the user to generate a list of pending cases with
impairments that result in a fully favorable decision 85 percent of the time. 29 In
discussing this process with hearing office managers, we were told SAA cases were
screened on a FIFO basis, consistent with other case workloads.

Accuracy Rates

The Agency’s internal reviews have shown a high level of accuracy in SAA decisions. 30
As of October 2010, OQP conducted six quality reviews of SAA decisions related to six
different periods, and each reported an agreement rate of at least 94 percent (see
Table 3). For example, OQP’s October 2010 quality review 31 found that 94 percent of
the SAA decisions was supported by a preponderance of the evidence. This October
2010 rate is a decrease from 98-percent decisional accuracy reported in FY 2008 and
96-percent decisional accuracy reported in FY 2009. However, this report covers only
6 months of FY 2010, and the results for the entire FY may change. 32




27
  For more on the FIFO process at ODAR, see our February 2011 report, Congressional Response
Report: Office of Disability Adjudication and Review’s Scheduling Procedures for Hearings
(A-12-10-20169).
28
 Screening for Targeted Impairments, memorandum issued by the Division of Workload Management,
ODAR, August 14, 2009. See Appendix E for more information on the case characteristics decided by
SAAs.
29
     Id.
30
  Decisional accuracy was a concern under the earlier SAA program and one of the reasons cited for
ending the program. General Accounting Office, Social Security Disability: Disappointing Results from
SSA’s Efforts to Improve the Disability Claims Process Warrant Immediate Attention, GAO-02-322,
February 2002. See Appendix H for more on the earlier SAA program.
31
  SSA, OQP, Quality Review Assessment Report of Senior Attorney Advisor Disability Decisions,
October 2009 – March 2010, Mid-Year Report, October 2010. The report covers 506 decisions selected
randomly each month and includes VSU cases.
32
     OQP’s October 2010 report notes that the decrease from FY 2008 was statistically significant.
Page 9 - The Commissioner


                           Table 3: SAA Decision Accuracy Rates
                             Period                             Decisional Accuracy
             November 2007 – December 2007                             96 %
             January 2008 – April 2008                                 97 %
             May 2008 –September 2008                                  98 %
             October 2008 – March 2009                                 96 %
             April 2009 – September 20091                              96 %
             October 2009 – March 2010                                 94 %
            Note 1: We calculated this rate since OQP issued a consolidated FY 2009 report.

In October 2010, OQP reported on its review of ALJ hearing decisions issued in
FY 2009. OQP’s report stated its evaluators found a 90-percent agreement rate for ALJ
allowance decisions, and 89 percent for ALJ denial decisions. However, given that the
ALJ cases can entail more evidence and more complex matters, these two rates are not
necessarily comparable.

Allowance Rates

We reviewed ODAR’s allowance rate before and after the SAA program was
implemented in FY 2008 to determine whether the SAA OTRs led to an increase in
allowances. We found that the allowance rate had remained relatively stable, averaging
about 61 percent of dispositions over the 7-year period (see Table 4). 33

                 Table 4: Dispositional and Decisional Allowance Rates
                                          (FYs 2004 to 2010)
                                                          Dispositional            Decisional
  FY     Dispositions       Decisions       Allowances     Allowances              Allowances
 2004      561,461           479,269          336,315         59.9%                   70.2%
 2005      605,003           518,489          377,625         62.4%                   72.8%
 2006      563,220           484,147          348,182         61.8%                   71.9%
 2007      547,951           471,762          340,036         62.1%                   72.1%
 2008      575,380           478,851          348,447         60.6%                   72.8%
 2009      660,842           557,771          403,980         61.1%                   72.4%
 2010      737,616           640,042          447,703         60.7%                   69.9%
Note: Decisions are less than dispositions because they do not include dismissals. Allowance rates were
      calculated by dividing allowances in each year by the relevant base, be it dispositions or decisions.




33
  The decisional allowance rate also remained relatively stable at approximately 72 percent over this
same period.
Page 10 - The Commissioner


HEARING OFFICE ISSUES

To gain a better understanding of the SAA program, we spoke to managers, SAAs, and
ALJs in nine hearing offices nationwide as well as management teams in four regional
offices. 34 We specifically discussed those aspects of the SAA program that they found
beneficial as well as areas that needed improvement.

SAA Benefits

During our interviews, managers at five of the nine hearing offices believed the Senior
Attorney Adjudicator initiative had increased productivity. 35 The managers cited a
number of benefits, including

•     increased productivity that assisted the hearing office to meet or exceed its goals,
•     retention of experienced attorneys, and
•     additional advancement opportunities for talented SAAs.

One Hearing Office Chief ALJ (HOCALJ) told us that the SAAs in his hearing office
were expected to handle 20 percent of the hearing office’s workload, easily surpassing
the hearing office’s productivity goal. An HOD in another office stated that the SAAs
were adjudicating between 50 and 135 cases per month. He stated the increased
productivity and lower processing times allowed the hearing office to review newer
cases more timely.

Another HOCALJ we interviewed believed the SAA program enabled the office to retain
talented attorneys as well as create advancement opportunities for talented SAAs. For
example, managers highlighted cases of productive SAAs advancing to an ALJ position
in one region and regional attorney in another.

Management Concerns

We identified a few areas where the program could be improved, including

•     performance measures and awards,
•     method of promotions,
•     attorney adjudicator worksheets, and
•     decision writing.



34
  Regional management teams included the Regional Chief ALJ, Regional Management Officer,
Regional Program Advisor, and Regional Director of Operations. Hearing office management teams
included the HOCALJ, HOD, and GS(s). We spoke to four regional management teams, visited seven of
the hearing offices, and spoke to the HODs in two additional hearing offices. See Appendix D for more
on the offices contacted.
35
     Six of the nine hearing offices were selected because of a high number of SAA decisions.
Page 11 - The Commissioner


Performance Measures and Awards

The hearing offices we visited lacked uniform performance standards for measuring
SAA adjudicatory performance, even though ALJs performing adjudication duties had
such standards. For example, ALJs had uniform productivity targets set by
management. While ALJs do not have binding performance standards, OCALJ has
asked them to strive to issue 500 to 700 legally sufficient decisions annually. In
addition, many of these managers did not know how individual SAA performance tied
back to the awards process.

In the absence of uniform performance measures, various hearing offices and regions
had established targets and goals to evaluate SAA performance. For example, the
Philadelphia Region had set a target for each SAA to produce at least eight OTRs per
month, whereas the Atlanta Region had created a benchmark of 7 days for SAAs to
review cases to determine whether they can be decided OTR. In the case of the VSU,
the Philadelphia Region had a target of 20 to 40 OTRs per month for the SAAs working
in the VSU. One Regional Chief Administrative Law Judge explained that he examined
the overall productivity of SAAs in the region and then developed “stretch goals” for the
SAAs. The stretch goals were based on the target numbers for SAAs and challenge
SAAs to surpass those base numbers. According to this manager, the stretch goals
allowed the Region to surpass 137 percent of its goal for SAA OTR decisions in
FY 2009 and put them around 160 percent midway through FY 2010.

Since SAAs only decide favorable cases, we do not believe a goal for a set number of
OTRs is appropriate, since it may simply encourage more allowances. In addition,
unlike ALJs, the SAAs perform adjudication duties among their other duties, so an
adjudication standard should only apply when they are performing adjudication duties.
As a result, a more clearly defined adjudicatory standard for SAAs should be developed
based on the number of cases screened rather than the number decided by OTR; and
should only be applied when they are performing this function. In the same way,
decision-writing measures should apply to SAAs while they are performing those duties.
Finally, such measures should be flexible enough to allow management to reassign
SAAs as required for the needs of the office but rigid enough to hold the SAAs
accountable regardless of their duties. Managers at ODAR’s headquarters informed us
that they are evaluating SAA productivity and expect to develop performance measures
in the future.

ODAR managers in the offices we visited also noted that SAAs receive monetary
awards based on their performance. However, most of the hearing office managers did
not have a good understanding of the SAA awards process. For example, five of nine
HODs we interviewed were unable to specify the criteria for the awards. When we
spoke with managers at ODAR headquarters, they explained that most of the SAA
awards were provided as part of the National Treasury Employee Union’s (NTEU)
award process, which administered FY 2010 awards to NTEU bargaining unit
employees in ODAR. The ODAR/NTEU Awards Panel, which is a combination of NTEU
representatives and ODAR management, makes recommendations regarding
Page 12 - The Commissioner


Recognition of Contribution (ROC) awards, On-the-Spot awards (OTS), and
Commendable Act or Service (CAS) awards. 36 Relevant Regional Chief ALJs and
HOCALJs review ROC nominations and may grant or deny the award. The Awards
Panel decides OTS and CAS awards and, as a result, the hearing office managers are
more likely to be aware of the ROCs than the other two award types.

We believe uniform performance measures with a clearly defined awards process would
provide ODAR managers with increased assurance that SAAs evaluations are
consistent within the organization.

Method of Promotions

We found that the process for promoting attorneys to SAA positions varied at hearing
offices, which led to some confusion among staff and managers. ODAR managers told
us that they advertised some SAA positions as competitive internal vacancy
announcements, 37 while other SAA positions were filled noncompetitively. Two of the
14 SAAs we interviewed told us that they were promoted noncompetitively because
they were SAAs during the earlier SAA experiment. 38 However, we interviewed two
other SAAs who were also in the earlier SAA experiment but who were required to apply
for the position. In addition, two hearing office managers stated they were informed
about the promotions in their offices, but these managers were not certain about the
criteria being used to support the promotions.

While ODAR management has flexibility when hiring and promoting attorneys, 39 we
believe ODAR should take all necessary steps to ensure the hiring process for SAAs is
uniform, transparent, open, and fair for all interested and qualified parties. ODAR’s
Deputy Commissioner provided guidance on the SAA hiring process to ensure ongoing
hiring would be competitive. We requested a list from ODAR headquarters’ staff
indicating the number of SAAs positions filled and whether they were filled competitively



36
  ROC awards are generally $700 to $1,500, or an increase in step, whereas the CAS awards are
generally $200 to $600 and OTS awards are generally $50 to $200.
37
   According to an internal vacancy announcement we reviewed, an applicant must be an attorney in
good standing of the bar of the highest court of any State, the District of Columbia, commonwealth or
territory of the United States. The applicant must submit an application along with two writing samples.
In addition, the applicant must be an expert in SSA programs with direct knowledge and skills gained as
an ODAR staff attorney.
38
  ODAR issued temporary promotions for attorneys to GS-13 senior attorney adjudicators during the
1990s program. When the 1990s program ended, the senior attorneys returned to GS-12 attorney
positions. We reviewed personnel records for these two individuals and confirmed that both were
promoted noncompetitively. For further discussion of the earlier SAA program, see Appendix H.
39
   For example, SSA’s Personnel Policy Manual, Management Officials Promotion Plan, Section 5.2—
Exceptions to Requirement for Competitive Procedure, provides for noncompetitive promotions in certain
circumstances as long as the candidates meet time-in-grade and basic qualification requirements.
Page 13 - The Commissioner


or noncompetitively. ODAR staff stated that 20 of the attorneys temporarily promoted
under the earlier SSA program were non-competitively promoted as part of the most
recent SAA program.

Attorney Adjudicator Worksheets

Three of the six ALJs we interviewed commented that the SAA Attorney Adjudicator
Worksheets, designed specifically for the SAA program 40 do not add any value to their
subsequent review. Under current procedures, if SAAs cannot issue a fully favorable
OTR decision, they should return the case to the hearing office for a hearing and an ALJ
decision. As part of this process, SAAs are expected to provide notes for the ALJ on
the worksheet. The worksheet contains a checklist regarding the status of the SAA
review, including an assessment on the likelihood of an allowance once additional steps
have been performed, as well as a section on the bottom of the sheet where the SAA
can place case notes for the ALJ.

One ALJ we interviewed suggested that SAAs provide a summary of the medical
information in the case. Another ALJ stated that SAAs provide notes most of the time,
but the quality has varied depending on the time the SAA put into the notes. According
to the HOCALJ at one hearing office, the earlier SAA program expected SAAs to
provide more extensive analysis and notes to ALJs. 41

Decision Writing

HOCALJs in three of the seven hearing offices we visited expressed concerns about the
number of decision writers available to assist with the hearings workload since some of
the promoted attorneys adjudicate cases instead of writing decisions. In a prior audit on
hearing office staffing, we highlighted the need for additional decision writers as well as
the need for a modified decision writer ratio that takes into account the SAA positions. 42
In response to our report, SSA managers noted that they increased the decision writer-
to-ALJ ratio for those offices with sufficient space. In addition, as noted earlier, the
Agency established NCACs, including a decision-writing unit in McLean, Virginia, as
well as a pulling and writing unit in St. Louis, Missouri. Regions have also established
their own decision-writing units. One of the HOCALJs who expressed concern about
the decision writer backlog stated the region’s centralized decision-writing unit was
assisting his hearing office with this backlog.




40
     See Appendix I for a sample of an Attorney Adjudicator Worksheet.
41
     See Appendix H for more on the earlier SAA program.
42
     SSA, OIG, Hearing Office Performance and Staffing (A-12-08-28088), February 2010.
Page 14 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
We noted increased growth in the number of SAAs and related OTR decisions. These
additional resources and decisions have assisted the Agency efforts to issue timely
decisions on cases that do not require a hearing while allowing the ALJs to focus on
cases that are more difficult. In addition, we did not find a measurable difference in the
allowance rate for hearings since the SAA program began. Our interviews with
managers and staff indicate the SAA program can increase office productivity and
morale. Our review of the program data as well as discussions with managers have
also identified areas where clearer criteria, more uniform standards, and additional
guidance would provide managers, ALJs, and staff in the hearing offices with an
enhanced understanding of the SAA program and its role in the Agency.

To address concerns about the SAA program, we recommend SSA:

1. Establish uniform performance measures for SAAs to ensure workloads are
   processed consistent with clearly defined standards.

2. Link SAA awards to uniform performance measures and ensure hearing office
   managers understand the administration of the SAA awards process.

3. Provide managers and staff with clear criteria for all SAA promotions.

4. Provide SAAs with additional guidance and tools, such as a modified Attorney
   Adjudicator Worksheet, to ensure SAAs highlight pertinent case details when a case
   cannot be decided as an OTR.

AGENCY COMMENTS
SSA agreed with all our recommendations. See Appendix J for the Agency’s
comments.




                                          Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Senior Attorney Adjudicator Duties

APPENDIX C – Scope and Methodology

APPENDIX D – Hearing Office Selection Criteria

APPENDIX E – Characteristics of Senior Attorney Adjudicator Decisions

APPENDIX F – Senior Attorney Adjudicator Dispositions per Hearing Office

APPENDIX G – Analysis of Senior Attorney Adjudicator Regional Trends

APPENDIX H – Earlier Senior Attorney Adjudicator Experiment

APPENDIX I – Senior Attorney Adjudicator Worksheet Sample

APPENDIX J – Agency Comments

APPENDIX K – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
ALJ      Administrative Law Judge
APT      Average Processing Time
CAS      Commendable Act or Service
CPMS     Case Processing and Management System
FIFO     First-in, First-out
FY       Fiscal Year
GS       Group Supervisor
HOCALJ   Hearing Office Chief Administrative Law Judge
HOD      Hearing Office Director
NCAC     National Case Assistance Center
NHC      National Hearing Center
NTEU     National Treasury Employee Union
OCALJ    Office of the Chief Administrative Law Judge
ODAR     Office of Disability Adjudication and Review
OIG      Office of the Inspector General
OQP      Office of Quality Performance
OTR      On-the-Record
OTS      On-the-Spot
ROC      Recognition of Contribution
SAA      Senior Attorney Adjudicator
SSA      Social Security Administration
VSU      Virtual Screening Unit
                                              DRAFT

                                                                                  Appendix B

Senior Attorney Adjudicator Duties
The senior attorney adjudicator’s (SAA) primary duties are as follows.

•   Render professional legal advice and assistance to the administrative law judges
    (ALJ) in prehearing development and preparation of cases for hearing, post-hearing
    development, and other post-hearing actions.

•   Analyze, research, and develop cases that are reviewed for ALJ decisions.

•   Write comprehensive decisions in the most legally complex cases for ALJ signatures
    after an ALJ hearing. ALJs provide instructions to SAAs on the content needed in
    each decision. SAAs 1 are responsible for providing an adequate draft decision that
    (1) is factually correct; (2) complies with the drafting instructions; (3) is prepared in a
    timely manner; (4) is persuasive; (5) properly analyzes the legal issue of the claim;
    (6) has proper spelling, punctuation, and grammar; and (7) includes an adequate
    rationale for each finding. SAAs also write dismissal decisions for Hearing Office
    Chief ALJs.

•   Screen cases and adjudicate fully favorable on-the-record (OTR) decisions. SAAs
    can request additional evidence and prior files, or call claimant representatives and
    ask for updated medical evidence. SAAs cannot request that case technicians pull
    the claim before examining the case for an OTR. SAAs prepare the fully favorable
    decisions and have the authority to sign the decision. In those cases where a
    favorable decision cannot be issued, SAAs return the case to the hearing office for
    normal processing along with a summary sheet explaining why the claims could not
    be paid OTR.

•   Mentor junior attorneys.




1
  Attorneys and paralegal employees in the hearing office perform decision writing duties. SAAs duties
include writing the more complex case decisions.
                                                                                 Appendix C

Scope and Methodology
To accomplish our objective, we:

•     Reviewed prior reports and studies conducted by the Social Security
      Administration’s (SSA) Office of the Inspector General, Government Accountability
      Office, Social Security Advisory Board, and SSA’s Office of Quality Performance.
•     Reviewed relevant laws and regulations, as well as the Agency’s policies and
      procedures, related to the Senior Attorney Adjudicator (SAA) program.
•     Reviewed the status of the SAA initiative and other screening initiatives to reduce
      the hearings backlog. We also spoke to the Office of Disability Adjudication and
      Review’s (ODAR) staff and managers about the Agency’s experiences with the
      earlier SAA experiment.
•     Reviewed the Agency’s updated position descriptions for SAAs, which included their
      new adjudication duties.
•     Reviewed the Case Processing and Management System’s (CPMS) closed claim
      database for Fiscal Years (FY) 2008 and 2009 to determine the number of SAAs
      and SAA decisions in all the regions and hearing offices nationwide. We also
      reviewed Agency data pertaining to FY 2010 SAA positions and decisions.
•     Analyzed the case characteristics of SAA decisions. We examined all the cases in
      FYs in 2008 and 2009 to determine the average age of the claimants. We also
      randomly selected 50 cases that were closed in FYs 2008 and 2009 to determine
      the impairments associated with the claimants.
•     Interviewed staff and management in the Office of the Chief Administrative Law
      Judge, spoke with four Regional Management Teams, 1 visited seven hearing
      offices, 2 and spoke with management at two additional hearing offices 3 to gain their
      opinion on the SAA program and observe how the program was being used in the
      different hearing offices (see Appendix D).
•     Discussed our findings with ODAR staff and management.




1
 Regional Management Teams included the Regional Chief Administrative Law Judge, Regional
Management Officer, Regional Program Advisor, and Regional Director of Operations.
2
 At the seven hearing offices we visited, we spoke to management teams that included the Hearing
Office Chief Administrative Law Judge, the Hearing Office Director (HOD), and Group Supervisor(s).
During these visits, we also spoke to administrative law judges and SAAs.
3
    We spoke to the HODs.


                                                  C-1
We found the data used in our review to be sufficiently reliable to meet our audit
objectives. We performed reliability testing of FY 2008 and 2009 data using the CPMS
closed claims database. The entity audited was the Office of the Deputy Commissioner
for Disability Adjudication and Review. We performed our review from February through
December 2010 in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




                                         C-2
                                                                     Appendix D

Hearing Office Selection Criteria
In Fiscal Year 2009, the Office of Disability Adjudication and Review had 140 hearing
offices operating in the United States and Puerto Rico. Senior attorney adjudicator
(SAA) usage and SAA productivity varied among the hearing offices. We identified
hearing offices that had higher SAA usage and hearing offices that had lower SAA
usage, based on the number of SAA decisions and SAAs in the hearing office. See
Tables D-1 and D-2.

                Table D-1: Hearing Offices with Higher SAA Usage
                                  Fiscal Year 2009
                                                    Average
                                                   Number of Total Number
                          Hearing      Number      Decisions     of SAA
         Region            Office      of SAAs      per SAA    Decisions
 Region III: Philadelphia   Philadelphia    9            85              762
 Region V: Chicago          Orland Park     7            57              401
 Region V: Chicago           Evanston       4            203             811
 Region IV: Atlanta         Atlanta North   8            109             875
 Region IV: Atlanta            Atlanta      5            142             711
 Region X: Seattle             Seattle      8            160            1278

                Table D-2: Hearing Offices with Lower SAA Usage
                                  Fiscal Year 2009
                                                    Average
                                                   Number of Total Number
                          Hearing      Number      Decisions    of SAA
         Region            Office       of SAA      per SAA   Decisions
                            Philadelphia
 Region III: Philadelphia                   3            46              138
                               (East)
 Region VI: Dallas             Tulsa        2             5               9
 Region IX: San
                              Phoenix       6             9              52
 Francisco
                                                                                 Appendix E

Characteristics of Senior Attorney Adjudicator
Decisions
We reviewed senior attorney adjudicator (SAA) decisions in Fiscal Year (FY) 2009 to
identify the age and disability of the claimant for cases allowed under this program.

AGE OF CLAIMANT

We found that 73 percent of the claimants were over age 50 (see Figure E-1), with the
average age of the claimant being 51 years old in FY 2009. SAAs did not adjudicate
many childhood cases. Only about 1 percent of SAA decisions were childhood cases. 1
We also analyzed the FY 2008 SAA decisions and the percentages were similar to
FY 2009.

                          Figure E-1: Age of Claimants Among
                                 FY 2009 SAA Decisions
                                                                   1%

                       44%                                              26%




                                                                 29%


               Less than 18 years old (1%)             Between 18 and 50 years old (26%)
               Between 51 and 55 years old (29%)       Over 55 years old (44%)




1
 The Social Security Administration’s Office of Quality Performance performed a Quality Performance
Review of SAA decisions and their findings on SAA case characteristics were very similar to ours.


                                                 E-1
In August 2009, the Office of Disability Adjudication and Review (ODAR) issued
guidance recommending cases be screened for (1) claimants age 50 and older and
(2) targeted impairment codes. 2 Managers at ODAR stated that the screening criteria
for claims can also include (1) on-the-record requests from claimant representatives,
(2) claimants’ education level, and (3) claimants’ past work history.

DIAGNOSIS CODES

We pulled a random sample of 50 cases decided by SAAs in FYs 2008 and 2009 and
found that the primary diagnosis was a disorder of the back (17 of 50 cases). 3 The next
highest diagnoses were mental (seven cases) and arthritic (six cases) disorders. The
remaining cases had various types of diagnoses.




2
 Screening for Targeted Impairments, memorandum issued by the Division of Workload Management,
ODAR, August 14, 2009.
3
    Back disorders are not one of the “targeted impairments” in the 2009 memorandum.


                                                   E-2
                                                                                                  Appendix F

Senior Attorney Adjudicator Dispositions Per Hearing Office
                   Table F-1: Senior Attorney Adjudicator (SAA) Dispositions per Hearing Office
                                                (Fiscal Year 2009)
                                                                                 Total Number     Average Number
                                           Number of   Number of    SAA to ALJ      of SAA        of Decisions per
       Hearing Office          Region        SAAs        ALJs         Ratio       Decisions             SAA
Philadelphia, PA           Philadelphia        9          10           0.90           762                85
Seattle, WA                Seattle             8          16           0.50          1278               160
Atlanta-North, GA          Atlanta             8          10           0.80           875               109
Oklahoma City, OK          Dallas              8          13           0.62           649                81
San Diego, CA              San Francisco       8           9           0.89            98                12
Cleveland, OH              Chicago             7          13           0.54           436                62
Jacksonville, FL           Atlanta             7          14           0.50           421                60
Orland Park, IL            Chicago             7           8           0.88           401                57
Raleigh, NC                Atlanta             7          12           0.58           400                57
Milwaukee, WI              Chicago             7          12           0.58           358                51
Cincinnati, OH             Chicago             7          13           0.54           327                47
Oakland, CA                San Francisco       7           8           0.88           303                43
New York, NY               New York            7          12           0.58           222                32
Columbus, OH               Chicago             7          11           0.64           211                30
Wilkes-Barre, PA           Philadelphia        7          11           0.64           207                30
Boston, MA                 Boston              7          14           0.50           196                28
San Antonio, TX            Dallas              7          17           0.41           175                25
San Bernardino, CA         San Francisco       7           9           0.78           159                23
Orlando, FL                Atlanta             7          11           0.64           100                14
Dallas-Downtown, TX        Dallas              7          12           0.58            93                13
New Haven, CT              Boston              7           5           1.40            70                10
Houston, TX                Dallas              6          13           0.46           712               119
Knoxville, TN              Atlanta             6          11           0.55           570                95
Nashville, TN              Atlanta             6           9           0.67           547                91



                                                       F-1
                                                                             Total Number   Average Number
                                        Number of   Number of   SAA to ALJ      of SAA      of Decisions per
       Hearing Office       Region        SAAs        ALJs        Ratio       Decisions           SAA
Denver, CO              Denver              6          11          0.55           487              81
Tampa, FL               Atlanta             6          14          0.43           449              75
Lexington, KY           Atlanta             6           8          0.75           437              73
Detroit, MI             Chicago             6          12          0.50           404              67
Charlotte, NC           Atlanta             6          11          0.55           296              49
Huntington, WV          Philadelphia        6           8          0.75           285              48
Orange, CA              San Francisco       6           8          0.75           248              41
Sacramento, CA          San Francisco       6          14          0.43           234              39
Creve Coeur, MO         Kansas City         6          11          0.55           219              37
Albany, NY              New York            6           8          0.75           202              34
Hattiesburg, MS         Atlanta             6          10          0.60           202              34
Oak Park, MI            Chicago             6          14          0.43           183              31
Bronx, NY               New York            6           7          0.86           165              28
Santa Barbara, CA       San Francisco       6           3          2.00           157              26
San Jose, CA            San Francisco       6           8          0.75           154              26
Long Beach, CA          San Francisco       6           6          1.00           147              25
San Rafael, CA          San Francisco       6           7          0.86           125              21
Stockton, CA            San Francisco       6           7          0.86            82              14
Portland, ME            Boston              6           5          1.20            79              13
Phoenix, AZ             San Francisco       6           9          0.67            52               9
Atlanta, GA             Atlanta             5          14          0.36           711             142
Greenville, SC          Atlanta             5          10          0.50           499             100
Oak Brook, IL           Chicago             5           7          0.71           444              89
Indianapolis, IN        Chicago             5          12          0.42           420              84
St. Louis, MO           Kansas City         5          11          0.45           352              70
Grand Rapids, MI        Chicago             5           7          0.71           345              69
Tupelo, MS              Atlanta             5          10          0.50           344              69
Elkins Park, PA         Philadelphia        5          10          0.50           309              62
Fort Lauderdale, FL     Atlanta             5          14          0.36           304              61
Miami, FL               Atlanta             5          11          0.45           296              59
Chattanooga, TN         Atlanta             5          11          0.45           266              53
Peoria, IL              Chicago             5           8          0.63           248              50


                                                    F-2
                                                                              Total Number   Average Number
                                         Number of   Number of   SAA to ALJ      of SAA      of Decisions per
        Hearing Office       Region        SAAs        ALJs        Ratio       Decisions           SAA
Buffalo, NY              New York            5          14          0.36           239              48
Alexandria, LA           Dallas              5          10          0.50           196              39
Downey, CA               San Francisco       5           5          1.00           183              37
Columbia, SC             Atlanta             5           9          0.56           168              34
White Plains, NY         New York            5           7          0.71           147              29
Roanoke, VA              Philadelphia        5           8          0.63           133              27
Los Angeles-W, CA        San Francisco       5           7          0.71           131              26
Las Vegas, NV            San Francisco       5           3          1.67            78              16
Little Rock, AR          Dallas              5          12          0.42            44               9
Evanston, IL             Chicago             4          10          0.40           811             203
Chicago, IL              Chicago             4           8          0.50           520             130
Albuquerque, NM          Dallas              4           9          0.44           507             127
Portland, OR             Seattle             4          10          0.40           413             103
San Juan, PR             New York            4           8          0.50           403             101
Mobile, AL               Atlanta             4          14          0.29           400             100
Syracuse, NY             New York            4          10          0.40           361              90
Kansas City, KS          Kansas City         4          11          0.36           345              86
Harrisburg, PA           Philadelphia        4           7          0.57           323              81
Salt Lake City, UT       Denver              4           6          0.67           309              77
Jericho, NY              New York            4           8          0.50           303              76
Louisville, KY           Atlanta             4           9          0.44           289              72
Baltimore, MD            Philadelphia        4          10          0.40           276              69
Middlesboro, KY          Atlanta             4           1          4.00           270              68
Charleston, SC           Atlanta             4           8          0.50           253              63
Jackson, MS              Atlanta             4           9          0.44           219              55
Birmingham, AL           Atlanta             4          16          0.25           187              47
Springfield, MA          Boston              4           6          0.67           186              47
Morgantown, WV           Philadelphia        4           9          0.44           180              45
Johnstown, PA            Philadelphia        4           7          0.57           164              41
Queens, NY               New York            4           7          0.57           164              41
Minneapolis, MN          Chicago             4          12          0.33           144              36
Norfolk, VA              Philadelphia        4           7          0.57           126              32


                                                     F-3
                                                                                Total Number   Average Number
                                           Number of   Number of   SAA to ALJ      of SAA      of Decisions per
       Hearing Office          Region        SAAs        ALJs        Ratio       Decisions           SAA
Fresno, CA                 San Francisco       4           8          0.50           102              26
Hartford, CT               Boston              4           7          0.57            95              24
Tucson, AZ                 San Francisco       4           5          0.80            95              24
Los Angeles-Downtown, CA   San Francisco       4           7          0.57            78              20
Honolulu, HI               San Francisco       4           1          4.00            65              16
Manchester, NH             Boston              4           8          0.50            61              15
Houston-DT, TX             Dallas              4          10          0.40            42              11
Newark, NJ                 New York            4          12          0.33            36               9
Omaha, NE                  Kansas City         4           4          1.00            34               9
Spokane, WA                Seattle             3           6          0.50           690             230
Eugene, OR                 Seattle             3           7          0.43           383             128
Colorado Springs, CO       Denver              3           5          0.60           315             105
Florence, AL               Atlanta             3           7          0.43           291              97
Montgomery, AL             Atlanta             3          10          0.30           289              96
Billings, MT               Denver              3           5          0.60           282              94
Charlottesville, VA        Philadelphia        3           7          0.43           251              84
Greensboro, NC             Atlanta             3          10          0.30           235              78
Wichita, KS                Kansas City         3           7          0.43           224              75
San Francisco, CA          San Francisco       3           7          0.43           222              74
Pittsburgh, PA             Philadelphia        3           7          0.43           192              64
West Des Moines, IA        Kansas City         3           6          0.50           183              61
Dayton, OH                 Chicago             3           7          0.43           171              57
New Orleans, LA            Dallas              3          10          0.30           158              53
Fargo, ND                  Denver              3           5          0.60           151              50
Philadelphia-East, PA      Philadelphia        3          10          0.30           138              46
Voorhees, NJ               New York            3           7          0.43           135              45
Dallas-North, TX           Dallas              3          14          0.21           127              42
Richmond, VA               Philadelphia        3           5          0.60           116              39
Memphis, TN                Atlanta             3          10          0.30            69              23
Washington, D.C.           Philadelphia        3           5          0.60            63              21
Metairie, LA               Dallas              3           8          0.38            49              16
Brooklyn, NY               New York            3          12          0.25            41              14


                                                       F-4
                                                                                                        Total Number       Average Number
                                                      Number of       Number of       SAA to ALJ           of SAA          of Decisions per
        Hearing Office                Region            SAAs            ALJs            Ratio            Decisions               SAA
 Charleston, WV                   Philadelphia            3                9             0.33                 36                  12
 Fort Worth, TX                   Dallas                  3                8             0.38                  9                   3
 Mayaguez, PR                     New York                2                1             2.00                321                 161
 Lansing, MI                      Chicago                 2                7             0.29                289                 145
 Savannah, GA                     Atlanta                 2               10             0.20                230                 115
 Kingsport, TN                    Atlanta                 2                8             0.25                218                 109
 Springfield, MO                  Kansas City             2                6             0.33                210                 105
 Fort Wayne, IN                   Chicago                 2                8             0.25                179                  90
 Flint, MI                        Chicago                 2                5             0.40                127                  64
 Evansville, IN                   Chicago                 2                5             0.40                107                  54
 Macon, GA                        Atlanta                 2                7             0.29                 97                  49
 Ponce, PR                        New York                2                3             0.67                 78                  39
 Pasadena, CA                     San Francisco           2                7             0.29                 48                  24
 Providence, RI                   Boston                  2                6             0.33                 30                  15
 Fort Smith, AR                   Dallas                  2                6             0.33                 23                  12
 Tulsa, OK                        Dallas                  2                9             0.22                  9                   5
 Madison, WI (Satellite)          Chicago                 1                2             0.50                136                 136
 Dover, DE                        Philadelphia            1                5             0.20                 78                  78
 Shreveport, LA                   Dallas                  1                8             0.13                 51                  51
 Paducah, KY                      Atlanta                 1               12             0.08                 28                  28
 Totals                                                  631            1,227            0.51              34,8741                57
Note 1: Our total is somewhat less that the Agency’s reported 36,366 figure. We extracted 36,150 senior attorney adjudicator (SAA) fiscal year
        2009 total decisions from the Office of Disability Adjudication and Review’s Case Processing and Management System. Of these, 1,276
        decisions could not be associated with a specific SAA. Overall, our 36,150 SAA cases are about 0.6 percent less than the figure reported
        by the Agency.




                                                                      F-5
                                                                                                                                             Appendix G

Analysis of Senior Attorney Adjudicator
Regional Trends
We reviewed Fiscal Year (FY) 2009 hearing case data in the Office of Disability
Adjudication and Review’s Case Processing and Management System to highlight
senior attorney adjudicator (SAA) workloads nationwide.

SAA DECISIONS BY REGION

The Atlanta and Chicago Regions processed about 40 percent of the total hearing
decisions 1 in FY 2009, whereas the two Regions accounted for about 46 percent of the
total SAA decisions (see Figure G-1). Of the more than 36,000 SAA decisions, the
Atlanta Region had about 10,000 decisions, while the Chicago Region had more than
6,600. In contrast, the Seattle Region had about 2,750 SAA dispositions, or 8 percent
of national SAA decisions, even though the Region represents about 3 percent of
national hearing decisions.

                       Figure G-1: FY 2009 Senior Attorney Adjudicator and ALJ
                          Decisions by Region Compared to National Volume
                 30%

                 25%

                 20%
       Percent




                 15%                                                                                                                     Percent of National SAA
                                                                                                                                         and ALJ Decisions
                 10%
                                                                                                                                         Percent of National SAA
                                                                                                                                         Decisions
                 5%

                 0%
                                                                   New York




                                                                                                                                Boston
                                                                                               Kansas City
                                           Dallas
                       Atlanta




                                                                                                                       Denver
                                                    Philadelphia




                                                                                                             Seattle
                                 Chicago




                                                                              San Francisco




1
    Total decisions include both administrative law judge (ALJ) and SAA decisions.


                                                                                              G-1
In terms of percent of each region’s workload, the Seattle Region had the highest
percentage of SAA decisions (15 percent) as a percent of the total regional decisions
(see Figure G-2). The Seattle Region had about 18,000 dispositions, of which about
2,750 dispositions were made by SAAs. The percentage of SAA decisions to total
regional decisions at the other regions ranged from 3 to 9 percent.

              Figure G-2: FY 2009 Senior Attorney Adjudicator Decisions
                          as a Percent of Total Regional Decisions
                        Region




                                         0%            10%          20%
                                       Percent of Total Regional Decisions



Our analysis also identified wide variances in timeliness between regions. For instance,
although the national average processing time (APT) for SAA decisions was 240 days in
FY 2009, APT varied from 195 days in the Philadelphia Region to 315 days in the
Boston Region (see Table G-1). 2 This variance between the two regions may relate to
SAAs in the Boston Region processing three times as many cases pending 500 days or
more. Nationwide, about 11 percent of FY 2009 SAA decisions related to cases
pending 500 days or more, whereas 12 percent of SAA decisions related to cases
pending 50 days or less. Overall, about 65 percent of all SAA decisions in FY 2009
related to cases pending 270 days or less. In the Seattle Region, approximately
78 percent of the SAA decisions were pending 270 days or less. Under the Agency’s
plan to eliminate the hearings backlog, ODAR plans to get the APT down to 270 days
for all dispositions by FY 2013—ALJ and SAA dispositions.




2
 Median processing time also varied widely, from 127 days in the Dallas Region to 256 in the Denver
Region.


                                                 G-2
               Table G-1: Timeliness of FY 2009 Senior Attorney Adjudicator
                                   Decisions by Region
                                                                    Percent       Percent
                      Average     Median    Percent                 50 Days      270 Days       Percent
                     Processing Processing  of SAA                    and           and        500 Days
    Region              Time       Time    Decisions                 Under         Under       and Older
    Boston               315        239         2.0%                    3.7%         53.9%         20.4%
    New York             215        178         8.9%                  12.7%          69.4%          6.3%
    Philadelphia         195        156        10.7%                  18.1%          73.9%          6.1%
    Atlanta              259        224        27.6%                    9.5%         58.6%         11.7%
    Chicago              265        211        18.3%                  11.1%          59.9%         15.2%
    Dallas               209        127         8.5%                  19.0%          72.1%         11.3%
    Kansas City          281        233         4.3%                    8.2%         56.9%         15.7%
    Denver               271        256         4.3%                    8.2%         52.4%         10.4%
    San
                          206            165               7.6%        11.1%         72.3%             6.5%
    Francisco
    Seattle               207            172              7.7%         10.8%         78.4%              6.9%
    Summary               240            192            100.0%        11.90%        64.70%            10.80%
Note: National APT was weighted by region, whereas national median processing time was calculated
      separately using data from all 10 regions.

SAA DECISIONS BY HEARING OFFICE

In FY 2009, the Seattle, Washington, Hearing Office had 1,278 SAA decisions, the most
among all hearing offices nationwide. 3 Regional and hearing office management
informed us that the SAAs were productive and efficient with adjudication; one SAA in
particular made most of the decisions and was promoted to Regional Attorney. In
contrast, the Tulsa, Oklahoma, and Fort Worth, Texas, Hearing Offices processed
nine SAA decisions each. Management at hearing offices with low numbers of SAA
decisions, such as Tulsa, told us that their SAAs needed more training with
adjudication. Table G-2 shows the 10 hearing offices with the most SAA decisions in
FY 2009. The Seattle Hearing Office processed the highest number of SAA decisions,
followed by the Atlanta North Hearing Office. The Spokane, Washington, Hearing
Office had the most individual decisions per SAA at 230 decisions.




3
    See Appendix D for our methodology for selecting our hearing office and Regional office visits.


                                                     G-3
            Table G-2: Highest Volume of FY 2009 Senior Attorney Adjudicator
                               Decisions by Hearing Office
                                                         Average Number of              Number of
                                 Number of Senior          Decisions per              Senior Attorney
                                    Attorney              Senior Attorney               Adjudicator
        Hearing Office             Adjudicators             Adjudicator                  Decisions
    Seattle, WA                         8                       160                        1,278
    Atlanta-North, GA                   8                       109                         875
    Evanston, IL                        4                       203                         811
    Philadelphia, PA                    9                        85                         762
    Houston, TX                         6                       119                         712
    Atlanta, GA                         5                       142                         711
    Spokane, WA                         3                       230                         690
    Oklahoma City, OK                   8                        81                         649
    Knoxville, TN                       6                        95                         570
    Nashville, TN                       6                        91                         547

Twelve (9 percent) of the 140 hearing offices had over 500 SAA decisions, while
31 hearing offices (22 percent) had less than 100 SAA decisions (see Figure G-3). Five
of the hearing offices we contacted were among the top 12 in terms of SAA decisions,
while 2 hearing offices we contacted had less than 100 decisions.

                                 Figure G-3: FY 2009 SAA Decisions
                                         by Hearing Office
                                        9%
                                                                      22%
                           21%




                                                                                48%


                        Less than 100 decisions             Between 100 and 300 decisions
                        Between 301 and 500 decisions       More than 500 decisions


As noted earlier, some SAAs produced many more decisions than other SAAs. For
instance, the Cleveland, Ohio, Hearing Office had 7 SAAs who issued a total of
436 decisions, while the New Haven, Connecticut, Hearing Office had 7 SAAs who
issued only 70 SAA decisions. 4



4
    See Appendix F for a table illustrating SAA decisions in each of the hearing offices.


                                                      G-4
                                                                                 Appendix H

Earlier Senior Attorney Adjudicator Experiment
Before the current Senior Attorney Adjudicator (SAA) program, the Office of Disability
Adjudication and Review (ODAR) had a similar SAA experiment operating from 1995 to
2000. The Agency discontinued this program because of a number of issues, including
concerns about decisional accuracy. ODAR management told us the Agency never
officially compiled a final study on the earlier SAA experiment. However, ODAR
management stated the Agency tried to address concerns from the previous experiment
and incorporate changes into the new program.

Based on discussions with ODAR staff and management, as well as our review of
available documentation, we created Table H-1 that highlights the differences between
the programs.

    Table H-1: Comparison of Earlier SAA Program with Current SAA Program
       Criteria               Previous SAA Experiment                     Current SAA Program
 Management              Hearing office management did not          Hearing office management
 control over SAA        have control over the time an SAA          decides amount of time SAA
 assigned duties         spent on adjudicating and decision         spends on adjudicating and
                         writing.                                   decision writing. SAAs detailed
                                                                    to the Virtual Screening Unit
                                                                    spend 100 percent of duty time
                                                                    screening and adjudicating.
 Experience                   3 years ODAR experience                1 year ODAR experience at GS-
 requirements                                                                      12 level
 Promotions                           Temporary                                 Permanent
 Quality                 Cases randomly selected for post-          Cases randomly selected for
                         effectuation review by the Office of       post-effectuation review by the
                         Program and Integrity Reviews.1            Office of Quality Performance
                         Administrative law judges                  (OQP). OQP’s FY 2009 review
                         expressed concerns about quality           reported a 96 percent agreement
                         and accuracy of decisions. The             rate.
                         program received low marks in a
                         Quality Assurance Review.
 SAA Notes to ALJs                Brief case analysis                Abbreviated notes and checklist
 Availability of         Decision writers who were                  Decision writers were hired to
 Decision Writers        promoted to SAAs were not                  replace promoted SAAs.
                         replaced.                                  According to the SAA position
                                                                    description, SAAs are expected
                                                                    to write the most complex cases,
                                                                    regardless of their adjudicative
                                                                    duties.
Note 1: The Office of Program Integrity Reviews later became OQP.
                                   Appendix I

Senior Attorney Adjudicator Worksheet Sample
                  Appendix J

Agency Comments
                                      SOCIAL SECURITY
MEMORANDUM


Date:   June 22, 2011                                                           Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “"Senior Attorney Adjudicator Program"
        (A-12-10-11018)--INFORMATION


        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Frances Cord at (410) 966-5787.

        Attachment




                                                       J-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“SENIOR ATTORNEY ADJUDICATOR (SAA) PROGRAM” A-12-10-11018

Recommendation 1

Establish uniform performance measures for SAAs to ensure workloads are processed consistent
with clearly defined standards.

Response

We agree. Before implementing any changes in the performance standards or measures, we will
be required to meet our statutory labor obligations.

Recommendation 2

Link SAA awards to uniform performance measures and ensure hearing office managers
understand the administration of the SAA awards process.

Response

We agree. Before implementing any changes in the awards process, we will be required to meet
our statutory labor obligations.

Recommendation 3

Provide managers and staff with clear criteria for all SAA promotions.

Response

We agree.

Recommendation 4

Provide SAAs with additional guidance and tools, such as a modified Attorney Adjudicator
Worksheet, to ensure SAAs highlight pertinent case details when a case cannot be decided as an
OTR.

Response

We agree. We currently maintain a website with tools and guidance for attorney adjudicators at
the following link: http://odar.ba.ssa.gov/odarweb/ocalj/attorneyadj.htm. In the near future, we
will release a temporary instruction with detailed guidance for SAAs. In addition, we have
established a senior attorney training cadre, and we are developing a training curriculum for
SAAs.




                                               J-2
                                                                     Appendix K

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division
   Nicholas Milanek, Audit Manager, Falls Church Audit Office

Acknowledgments

In addition to those named above:

   Faisal Khan, Auditor-in-Charge
   Mary Ann Braycich, Senior Evaluator
   Asad Isfahani, Auditor
   Parham Price, Auditor
   Nichole Bazemore, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-12-10-11018.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
